                              REMARKS OF
                          CALVIN L. SCOVEL III
                          INSPECTOR GENERAL
                 U.S. DEPARTMENT OF TRANSPORTATION
                                      before the
             ILLINOIS DEPARTMENT OF TRANSPORTATION
                “ETHICS IN THE WORKPLACE” SEMINAR
                            Chicago, Illinois

                                   August 21, 2007


Good morning. Thank you, Secretary Sees and Director Kennelly, for inviting me here
today. It is an honor to be included among the many notable speakers who will be
sharing their insights with you about the role of ethics in our everyday work
environments.

Having recently ended my career as a Marine, I am very familiar with the core values of
honor, courage, and commitment that guide Marines and Sailors in their lives, both
professional and personal. In my current role as U.S. DOT Inspector General, these
values remain central to my daily responsibilities.

I’m proud of the excellent and long-standing relationship between the U.S. Department of
Transportation Inspector General and IDOT, which has resulted in many successes in
combating fraud and public corruption in transportation. And I thank all of you for your
continuing professionalism, hard work, and demonstrated commitment to upholding the
public trust.

Our shared experiences include the infamous Palumbo Brothers case, which began more
than 15 years ago after an IDOT employee reported unusual activities involving his boss
and this big paving company—one that had existed for more than 100 years and had
worked on nearly every major expressway in the Chicago area.

The subsequent multiyear investigation revealed large-scale overcharges for road-
building materials, altered payroll records, and bribes being paid to an IDOT resident
engineer to look the other way. A 37-count Federal grand jury indictment resulted.
Close coordination and cooperation between our organizations were essential in closing
this landmark case, which culminated in the guilty pleas and convictions of seven
individuals and two companies for racketeering, mail fraud, perjury, and other charges.
Six individuals were incarcerated, and the Palumbo brothers, their father, and the two
companies were debarred from public-road building for life. More than $10 million in
restitution and fines was ordered by the court. The IDOT resident engineer lost his State
pension.

Michelle McVicker, the Special Agent-in-Charge of our Chicago office, informs me that
this high level of cooperation and coordination continues today on other investigations,
such as one we are currently pursuing with IDOT and the U.S. Attorney’s Office alleging
large-scale time-card alteration.

Today I would like to discuss the following four issues:

   9 Maintaining integrity in transportation programs;

   9 Ethics principles and standards followed at the Federal level;

   9 Examples of ethical choices—both right and wrong; and

   9 Why unethical conduct is often not reported, and what we can do to better ensure
     high ethical standards.


To begin with, how do we maintain integrity in transportation programs? It all
comes down to us. Ethics in the workplace is central to detecting and preventing fraud,
waste, and abuse. It is also key to upholding the public trust, which I view as the
cornerstone of public service.

No program, at any level of government, is immune to fraud and abuse, and the
professionals who carry out vital programs such as those involving the construction and
maintenance of our Nation’s highways represent the first line of defense in ensuring
program integrity.

The public relies on professionals such as all of us—construction managers, resident
engineers, inspectors, auditors, and compliance officers—as well as, importantly,
contractor representatives—to do the right thing every day in conducting the public’s
business. Your vigilance, in conjunction with effective internal controls and oversight
mechanisms, is essential to mitigating the extent to which fraud and abuse involving
transportation programs cheat American taxpayers and erode public confidence in the
integrity of our transportation system.

From my perspective, fraud and abuse harm USDOT efforts to provide the safe and
efficient transportation systems that are essential to America’s continued economic
vitality, our Nation’s ability to compete in a global economy, and most importantly, each
citizen’s quality of life. I know these conditions also harm your efforts to fulfill the
IDOT mission.


                                            2
We must be vigilant in ensuring that effective internal controls and oversight mechanisms
are in place to detect and reduce the instances of fraud that prohibit us from
accomplishing our goals. And we must do so in an ethical manner.


To my second point: at the Federal level, two core concepts underlie ethics
principles and standards. Executive branch employees—including those in DOT
OIG—hold their positions as a public trust. The American people have a right to expect
that we will place loyalty to the Constitution, laws, regulations, and ethical principles
above private gain. We fulfill that trust by adhering to general principles of ethical
conduct and specific ethical standards. These principles broadly define the obligations of
public service and relate to issues such as financial responsibility, soliciting or accepting
gifts, and engaging in outside employment.

Underlying these principles are two core concepts:

   9 Employees shall not use public office for private gain, and

   9 Employees shall act impartially and not give preferential treatment to any private
     organization or individual.

In addition, employees must strive to avoid any action that would create even the
appearance that they are violating the law or ethical standards.

By observing these general principles and specific ethical standards, Federal employees
help to ensure that our citizens can have confidence in the integrity of government
programs and operations. I know that requirements similar to these also exist at the State
and local levels.


Third, it all comes down to personal decision-making. Unfortunately, ethical lapses
by individuals in critical positions do occur on occasion, sometimes resulting in scandals
that significantly undermine public confidence in the integrity of government.

An example of this that still reverberates is the conflict-of-interest-related convictions of
a former top Air Force procurement official and a Boeing executive involving a major
Defense Department contract for tanker aircraft. You may recall hearing in the media
about the case involving Darleen Druyun, who helped negotiate a controversial plan to
lease Boeing 767 commercial jets to the Air Force for use as aerial refueling tankers.

Druyan and Michael Sears, Boeing’s former chief financial officer, were both fired after
an internal Boeing investigation found they had violated company policies. Specifically,


                                              3
Sears had communicated directly and indirectly with Druyun about possible employment
with Boeing while she still worked for the Air Force and before she recused herself from
official involvement with Boeing contracts. The investigation also uncovered that the
two had tried to conceal their misconduct.

What are the most common ethical violations? According to a 2005 study by the Ethics
Resource Center, these violations include:

   9 Misreporting actual time or hours worked (16%),

   9 Stealing, theft, or related fraud (11%),

   9 Misuse of confidential information (7%),

   9 Giving or accepting bribes, kickbacks, or inappropriate gifts (3%).

USDOT, too, has seen its share of cases involving conflicts of interest, outright fraud,
improper financial activities, and other ethical lapses.

For example, in one case we investigated, two George Washington University
engineering professors, who were cousins, embezzled nearly $1 million in Federal
Highway Administration cooperative agreement funds for a National Crash Analysis
Center program administered by the university.

As program directors, the professors had been entrusted to manage the center on behalf of
the university. The 4-year embezzlement scheme was uncovered only after a university
official identified a potential conflict of interest involving a plan to use funds from the
cooperative agreement to contract with a firm controlled and partially owned by one of
the directors.

In the end, the university agreed to reimburse the government more than $1.8 million for
the overcharges plus penalties. The directors pled guilty to the embezzlement charges
and were sentenced to a total of 43 months in prison and restitution of almost $953,000.

Another case involved a Federal Aviation Administration supervisor no longer employed
by FAA. This individual pled guilty to charges of wire fraud and money laundering in
connection with a procurement fraud scheme in which he received about $159,000 in
corrupt payments for steering government contracts valued at about $8 million to an
information technology services company headed by a former FAA employee.

This was done by structuring the contracts in a manner designed to favor the contractor
and avoid competition by secretly allowing the contractor to participate in drafting
contract specifications and improperly disclosing confidential FAA information.


                                             4
We have investigated other cases involving ethical lapses that, while not criminal, posed
serious administrative implications for both the employee and DOT. For example, in one
DOT agency, a senior executive attended social functions paid for by a contractor who
was the executive’s previous employer. The executive exerted perceived pressure on
subordinates to award more than $1 million in contract task orders to this contractor for a
strategic plan and marketing services. The senior executive was disciplined.

In still another case, a 1,700-space parking garage was built with $20 million in Federal
Highway Administration funds near the FedEx Forum Arena in Memphis, Tennessee,
home of the National Basketball Association Grizzlies. The approved plan had called for
the garage to be used to provide free or discounted parking for transit passengers, with
parking proceeds used to manage and maintain the structure. Instead—and I know you
see this coming—we found the garage being used for profit by a contractor associated
with the Grizzlies. The Federal Highway Administration was subsequently reimbursed
$20 million from the Tennessee Department of Transportation for the Federal share of
this project.

Situations like these can exist in any organization. While these examples highlight cases
in which wrong choices were made, there are many examples where State DOT
employees and others have made the right choices to uphold the public trust by
demonstrating high standards of ethical conduct.

For instance, a member of an asphalt-paving crew told a resident engineer for the
Missouri Department of Transportation that his bosses were switching asphalt cores to
fraudulently earn quality bonuses under at least two Federal-aid contracts in St. Louis.

After corroborating the allegation by surreptitiously marking quality control core
locations with special paint, the resident engineer, materials supervisor, and district
engineer referred the matter through their headquarters to us. Our investigation resulted
in payment of a $200,000 civil settlement and termination of the responsible paving crew
chief and supervisor.

Another example of the right choice being made includes a Connecticut DOT inspector
and resident engineer assigned to an Interstate 95 reconstruction project in Bridgeport.
The inspector noted that a concrete supplier had delivered a truckload of pre-cast
concrete catch basins only a day after the custom design, including a framework of
reinforcing steel, was approved by ConnDOT. Pre-cast concrete structures normally
must cure for at least a week before shipment.

The inspector reported the discrepancy to the resident engineer, who noted handwritten
markings on one of the catch basins indicating that the basin was standard stock, not a



                                             5
custom product. The resident engineer directed destructive testing on one of the
oversized catch basins and found no reinforcing steel.

After twice blaming the discrepancy on truckers who “mistakenly” loaded the wrong
stock, the concrete supplier finally admitted that his company had falsely certified that it
provided materials meeting contract specifications. The supplier was suspended from the
State’s prequalification program, had to identify and replace deficient structures at a
substantial cost, and paid $500,000 in criminal and civil penalties.


Finally, we must all encourage the reporting of unethical conduct and help foster
high ethical standards. Cases on both ends of the ethical spectrum clearly exist, yet
according to the 2005 survey that I mentioned earlier, only 55 percent of employees who
were aware of misconduct reported it—a decrease of 10 percent from a 2003 survey.
These numbers are disappointing at best, and we need to find a way to increase them.

The top reasons for not reporting, according to the survey, included:

   9 The perception that no corrective action would be taken,

   9 Concerns about confidentiality,

   9 Fear of retaliation by superiors and coworkers, and

   9 Not knowing whom to contact.

So what steps can we take to promote and reinforce high ethical standards? We can start
by being sure we have addressed all of the reasons—including those just cited—for not
reporting unethical conduct. But this is not enough. We must also continually promote
and reinforce ethical standards to help guard against lapses in integrity.

In my view, prevention and deterrence of ethical lapses in any organization depend on
both the effectiveness of internal controls and oversight processes and a robust ethics
awareness and training program. No ethics program will be a panacea; ethical conduct
ultimately derives from individual moral judgment. Yet it is nonetheless imperative that
government employees, grantees, and contractors alike actively foster a culture of ethical
awareness and behavior.

The survey confirmed that ethics and compliance programs do make a difference.
However, their impact is related to the culture in which they are situated. Program
success was found to be highest in strong cultures, which the survey defined as including
a display of certain ethics-related actions at various levels in the organization, along with
accountability for actions.


                                              6
This starts with the tone at the top. Simply put, we must lead by example.

We must recognize that building and maintaining an ethics-oriented culture involves
more than simply requiring employees to submit annual financial disclosure reports and
certify that they have completed briefings on standards of ethical conduct. To further
instill ethical values and expectations through heightened awareness, ethics programs
need to be multifaceted, with increased attention given to those who are involved in
awarding and administering contracts, cooperative agreements, and grants—the very
areas where we have found fraud and ethical misconduct very likely to occur.

A robust ethics program should include the following:

   9 Recurrent expressions of commitment by the organization’s senior leadership, to
     include stressing the importance of maintaining an arms-length relationship with
     contractors and grantees and avoiding even the appearance of impropriety;

   9 Periodic case study discussions of instances in which ethics violations occurred,
     as well as discussions of hypothetical scenarios;

   9 Thorough review and follow-up by agency ethics officials of financial disclosure
     filings to identify potential problems; and

   9 Ensuring that ethics programs include contractors and grantees.

Computer and Web-based ethics training, especially interactive courses including
questionnaires with automated feedback, is beneficial and efficient, but not a substitute
for personal interaction between agency ethics officials and employees.

Moreover, agency ethics officials should routinely consult with their ethics advisers—for
us at the Federal level, this is the Office of Government Ethics—as a resource for
training, best practices, and advisory opinions and updates on statutory and other
requirements.

In addition to enhancing ethics awareness and training, I highly encourage working with
Inspectors General to strengthen internal ethics programs and improve fraud detection
and prevention. Invest time and resources to proactively prevent and detect fraud and
ethical misconduct. Establish trusted reporting methods, such as anonymous hotlines.

Mandate anti-fraud and ethics training, and reward employees not only for meeting
financial goals, but also for displaying outstanding ethical behavior. Aggressively pursue
suspected ethics violations, whether potentially criminal or administrative, and refer them
in a timely manner to the appropriate authority for review and possible investigation.


                                             7
This includes allegations of fraud related to false claims, false statements, cost
mischarging, kickbacks, and bribes and gratuities. Recognize that many cases involve
aberrant behavior by employees who deceive both the government and companies. Don’t
look the other way: doing so does no one any good.

To heighten deterrence, managers must take appropriately strong disciplinary and other
actions when ethical lapses occur. For example:

   9 Find and remove “bad actors” before they engage in major fraud;

   9 Identify causes and systemic weaknesses;

   9 Strengthen internal controls to prevent recurrences;

   9 Realize that self-reporting of known ethical lapses and/or fraud, along with an
     effective compliance program, can mitigate civil and criminal liability; and

   9 Continuously communicate expectations.

It is, ultimately, our individual responsibility to create a culture of doing the right thing.
Do the right thing when conducting the public’s business. It’s what the American
taxpayer expects, and deserves.

I wish to thank Secretary Sees, Director Kennelly, and everyone else who helped make
this seminar happen. Activities like this send an important message to those working
hard to uphold the public trust, as well as those who would take advantage of it.
Most of all, however, I wish to thank all of you for your integrity and honesty and for the
incredible jobs you are doing.

Before I conclude, I’d like to mention that we will be co-sponsoring, with the American
Association of State Highway Transportation Officials, or AASHTO, and IDOT will be
hosting, our fifth biennial National Fraud Awareness Conference July 28–31, 2008, here
in Chicago. Our last conference in Orlando drew some 325 attendees—a number we
look forward to exceeding next year. I hope you will consider attending as your schedule
permits.

The goals of this conference are threefold:

   9 To sharpen awareness of fraud schemes,

   9 To share best practices, and

   9 To strengthen all-important working relationships.


                                               8
Attendees typically include transportation infrastructure professionals and oversight
providers, including law enforcement, from all levels of government, as well as
contractor and industry association representatives.

Thank you again for allowing me to participate today. I’d be happy to answer any
questions you might have.

                                            #




                                            9
